           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   USE OF VIDEO HEARINGS TO REDUCE
      THE HEARING CASE BACKLOG


       April 2011   A-05-08-18070




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:      April 22, 2011                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Use of Video Hearings to Reduce the Hearing Case Backlog (A-05-08-18070)


           OBJECTIVE
           Our objective was to assess the ongoing implementation and use of video hearing
           technology in the Office of Disability Adjudication and Review (ODAR).

           BACKGROUND
           Chief among the Commissioner’s initiatives to eliminate the hearings backlog and
           prevent its recurrence is the use of video teleconferencing (VTC) technology to conduct
           claimant hearings. 1 Video hearings are a key component of ODAR's ability to manage
           its ongoing disability hearings workload. 2 The primary goals of the VTC initiative are to
           boost claimant satisfaction, provide more timely hearings, save administrative law judge
           (ALJ) travel time, process cases faster, and realize a greater ratio of hearings held to
           hearings scheduled. 3

           VTC technology enables ALJs to hold video hearings at permanent remote sites (PRS)
           as well as to hear cases transferred among ODAR’s offices in different cities
           nationwide. A video hearing allows the claimant and the other hearing participants to
           see and hear each other via color monitor. The ALJ remains in his or her office, and the
           claimant goes to a site convenient to where he or she lives. Except for the VTC
           equipment, a video hearing is virtually the same as a hearing where the claimant



           1
            Social Security Administration (SSA), SSA Strategic Plan Fiscal Years 2008 – 2013, Strategic Goal 1 –
           Eliminate our hearings backlog and prevent its recurrence.
           2
            SSA regulations that authorize and discuss the use of VTC are at 20 C.F.R. §§ 404.929, 404.936,
           404.938, 404.950, 416.1429, 416.1436, 416.1438, and 416.1450.
           3
            Video Teleconferencing Appearances Before Administrative Law Judges of the Social Security
           Administration. Federal Register (FR) Vol. 68, No. 238, 68 FR 69003, December 11, 2003.
Page 2 – The Commissioner


appears in person. 4 The judge interacts with the claimant and anyone accompanying
the claimant, such as a representative or a witness. See Appendix B for a description of
the video hearing.

ODAR began testing the use of video hearing technology in 1996 and implemented
video hearings nationwide in 1999. The Agency is using two types of video equipment:
a full-sized room package costing approximately $23,000 and a compact Desktop Video
Unit (DVU) costing about $8,500. 5 VTC sites include standard hearing rooms,
permanent remote hearing sites, and other SSA facilities, such as the National Hearing
Centers (NHC), 6 throughout the 50 States, the District of Columbia, Puerto Rico, Guam,
and American Samoa.

SCOPE AND METHODOLOGY
As part of our review, we met with ODAR management and staff at the national,
regional, and hearing office level to understand the video hearing process, observe
hearings, and collect relevant data. In addition, we interviewed 26 ALJs to discuss their
use or non-use of video equipment. We also analyzed hearing case information for
closed claims from 2005 through 2009 to identify trends and points of interest. See
Appendix C for additional procedures applied and further detail on our scope and
methodology.

RESULTS OF REVIEW
The number of hearings held by video increased by 260 percent over a 4-year period,
from 23,418 in Fiscal Year (FY) 2005 to 84,121 in FY 2009. Approximately 18 percent
of all hearings was conducted by video in FY 2009. Video usage varied from
34.8 percent of all hearings in the Boston Region to 9 percent in the New York Region.
Moreover, the Atlanta Region held approximately 26 percent of all video hearings
nationwide in FY 2009, double the next highest Region, Dallas, at 13 percent.



4
  SSA’s Office of Quality Performance (OQP) issued a report after assessing (1) any differences or
problematic areas between hearings conducted by VTC and hearings conducted in-person, and (2) any
specific issues unique to the processing of VTC hearings. After a review of 560 hearing decisions –
280 related to VTC hearings and 280 related to in-person hearings – OQP reported no significant
differences between the accuracy rates of hearing decisions related to both types of hearings. The OQP
reviewers also examined several areas unique to the VTC hearing decision, such as location of the
claimant and technical difficulties associated with the VTC hearing, and found that these issues were
generally handled appropriately. See Quality Review Assessment Report of Video Teleconference
Hearings, OQP, November 2009.
5
 These costs include installation but not communication lines. See Appendix B for more on this
equipment.
6
 NHCs, which conduct VTC hearings only, operate in Albuquerque, New Mexico; Baltimore, Maryland;
Chicago, Illinois; Falls Church, Virginia; and St. Louis, Missouri. NHCs are directed by the Office of the
Chief ALJ in Falls Church, Virginia, not the Regional Chief ALJs.
Page 3 – The Commissioner


Hearing office video usage varied widely, with approximately 22 percent of the hearing
offices using video equipment for less than 1 percent of their hearings. We also found
that 19 percent of ALJs did not use the equipment at all in FY 2009. In our discussions
with ALJs, we learned that some ALJs did not conduct video hearings based on their
workloads and/or preferred work styles. In addition, some reported equipment problems
as well as a lack of training on using video equipment. While it is not necessary for
every ALJ to use the equipment, perceptions of equipment problems may inhibit greater
use.

The video hearing technology has provided the Agency with greater flexibility in
allocating hearing workloads and addressing backlogs nationwide. SSA can transfer
cases and entire service areas to new locations that can continue servicing claimants by
video. The cost of this equipment has been reduced as smaller, less expensive units
become available for ALJs. Moreover, some private firms have installed video
equipment in their own facilities. Finally, while video hearings assisted in addressing
backlogs and therefore overall timeliness, cases processed with video hearings took
more time than in-person hearings. This occurred mostly because of the age of the
cases being worked.

USE OF VIDEO EQUIPMENT IN HEARINGS

The number of video hearings increased by 260 percent, from 23,418 in 2005 to
84,121 in 2009 (see Figure 1). 7 Similarly, the number of video hearings as a
percentage of total hearings held increased from 6.4 percent in 2005 to 17.6 percent in
2009. 8 This trend indicates successful execution of management’s strategy to increase
the number and percent of hearings using video technology.




7
  We reviewed closed hearing case data in ODAR’s Case Processing and Management System (CPMS),
a Web-based application that controls and processes hearing claims and produces management
information. CPMS is a centralized repository for case data, provides scheduling capabilities, has
hyperlinks to reference material, and interfaces with other SSA systems.
8
  Agency data reported on Hearings Held In-Person or Via Video Conferencing indicated the rate had
risen to 20.3 percent as of June 25, 2010. We focused our analysis on FY 2009 data since that was the
last full year of data available at the time of our review.
Page 4 – The Commissioner


                     Figure 1: Year to Year Trend – Closed Claims
                                  and Hearings Held
                                   FYs 2005 to 2009



               700,000

               600,000

               500,000

               400,000

                300,000

                200,000

                100,000

                      -
                             2005
                                       2006
                                                 2007
                                                            2008
                                                                       2009



                                          2005     2006      2007      2008     2009
                Hearings Held by Video 23,418     39,568    43,985    56,464   84,121
                Total Hearings Held     366,932 400,766 398,016 405,826 477,903
                Total Closed Claims     519,364 558,977 547,952 575,381 660,843


           Note: “Total closed claims” refers to all hearing dispositions in a particular FY.

Video Hearings and Demographics

The Atlanta Region held approximately 26 percent of all video hearings in FY 2009,
double the next highest region, Dallas, at 13 percent (see Figure 2). These breakouts
do not reflect the workloads of the NHCs, which conducted approximately 8 percent of
all video hearings that year. Over this period, the NHCs assumed a greater number of
cases from heavily burdened hearing offices in distant geographic locations.
Page 5 – The Commissioner


                                   Figure 2: Share by Region for
                                      FY 2009 Video Hearings
                                      Seattle (2.2%)   Denver (1.7%)
                           Kansas City (4.0%)

                  New York (4.6%)

                                                                                 Atlanta (25.7%)
             Boston (6.6%)




        National Hearing
         Centers (8.5%)




                                                                                      Dallas (12.8%)
            Chicago (10.2%)




                              San Francisco                            Philadelphia
                                (11.6%)                                  (12.1%)



Based on our analysis and as shown in Figure 3, with the exceptions of the New York
and Chicago Regions, we found the percentage of nationwide disability recipients 9 by
region and the percentage of video hearings held in each region in FY 2009 were
closely aligned. In addition, with the same exceptions, we found the number of video
hearings conducted per region and regional population distribution were closely
aligned. 10




9
 Total disability payments represent the sum of those receiving disbursements under Titles II and XVI in
2009. See SSA, Office of Research, Statistics, & Policy Analysis Data, Annual Statistical Supplement,
2009 to the Annual Statistical Report,
http://www.socialsecurity.gov/policy/docs/factsheets/cong_stats/2009/index.html (as of July 6, 2010).
10
  U.S. Population by Region statistics used in Figure 3 are government estimates for July 1, 2010. See
U.S. Census Bureau, Population Division, Interim State Population Projections, 2005, Table A1— Interim
Projections of the Total Population for the United States and States: April 1, 2000 to July 1, 2030.
Statistics used for Nationwide Disability Recipients were taken from SSA sources. See SSA, Office of
Retirement and Disability Policy, Congressional Statistics, December 2009,
www.socialsecurity.gov/policy/docs/factsheets/cong_stats/2009.
Page 6 – The Commissioner


                          Figure 3: Comparison of FY 2009 Video Hearings
                                 and Disability Recipients by Region

                                      Share of National Totals
     30%           25%            20%              15%          10%             5%            0%

                                                                                                   Atlanta
                                                                                                   Dallas
                                                                                                   Philadelphia
                                                                                                   San Francisco
                                                                                                   Chicago
                                                                                                   NHCs
                                                                                                   Boston
                                                                                                   New York
                                                                                                   Kansas City
                                                                                                   Seattle
                                                                                                   Denver


      % of 2009 Nationwide Disability Recipients    % of 2009 Total Video Hearings   % of US Population in Region

Note: We did not provide disability recipient or population totals for the NHCs since they do not represent
a specific area in the country.

The Chicago and New York Regions were anomalies in FY 2009. In the Chicago
Region, the fewer number of video hearings relative to the number of disability
recipients and regional population was related in part to the transfer of cases or service
areas to other regions and the NHCs. Because of significant backlogs in some parts of
the Chicago Region, the Agency redirected caseloads to lessen the burden on the
Region’s hearing offices. Assisting offices conducted video hearings on these
redirected claims, such as the NHCs and hearing offices in other regions, including
hearing offices in the Philadelphia and Boston Regions. 11

In the New York Region, the fewer number of video hearings relative to the number of
disability recipients and regional population is partially attributable to population density,
which lessened the need for video hearings to the same relative frequency found in
other regions. In addition, we understand from ODAR management that the New York
Region was among the first regions to receive assistance from the NHC, whose VTC
statistics would have registered with the NHC instead of the New York Region.




11
  Hence, the Philadelphia and Boston Regions show a higher use of video hearings than expected given
the underlying disability recipients and population.
Page 7 – The Commissioner


Figure 4 further illustrates the lower use of video equipment in the New York, Denver,
and Chicago Regions. Outside the NHCs, the use of VTC ranged from 34.8 percent of
all hearings in the Boston Region to 9 percent in the New York Region in FY 2009.

                  Figure 4: FY 2009 Video Hearings as a Percentage of
                           Total Hearing Workload by Region

                                                                    9.0%        New York

                                                                 11.3%          Denver

                                                                12.8%           Chicago

                                                              15.4%             Seattle

                                                              15.7%             Dallas

                                                              16.3%             Kansas City

                                                              17.1%             Atlanta

                                                            19.0%               San Francisco

                                                            19.4%               Philadelphia

                                                    34.8%                       Boston

                 99.7%                                                          NHCs



Video Equipment Use at Hearing Offices

In our review of hearing office usage of video equipment, we also noted intra-regional
pockets of video equipment under-usage. Specifically, we examined video equipment
usage rates 12 for all non-NHC hearing offices for the first 9 months of FY 2010 to
identify those offices that had a low proportion of total hearings held by video. We
noted that approximately 62 percent of all video-equipped offices nationwide held fewer
than 15 percent of their total hearings by video, and 22 percent of the offices held fewer
than 1 percent of hearings by video. We provide VTC equipment usage rates in
Figure 5.




12
   We derived the usage rates by dividing the number of video hearings per office by the total number of
hearings conducted by ALJs in the office for September 1, 2009 through June 25, 2010, per SSA
information provided at www.data.gov (as of August 30, 2010).
Page 8 – The Commissioner


           Figure 5: Hearing Office VTC Equipment Usage Rates in FY 2010


                                          5% of Hearing                   15% of Hearing
                                         Offices use VTC                    Offices hold
        40% of Hearing                   50% of the time                   between 15%
         Offices hold                      or more for                     and 29.99% of
       between 1% and                        hearings                     hearings by VTC
          14.99% of
       hearings by VTC




                                                                               18% of Hearing
                       22% of Hearing                                            Offices hold
                         Offices hold                                           between 30%
                       <1% of hearings                                          and 49.99% of
                           by VTC                                              hearings by VTC

Those offices with little or no VTC usage were generally heavily burdened hearing
offices in such locations as Detroit, Michigan, where the local ALJs focus on in-person
hearings. Other locations assisted these offices with the claims that could be conducted
by video from remote locations or claimant-only hearing rooms, if available. In sum, the
Agency purchased, shipped, and installed video equipment for facilities having virtually
no ALJs conducting video hearings. As a result, in facilities with low VTC rates, video
equipment was largely unused because the hearing rooms were used for in-person
hearings. We estimate the costs related to the 22 percent of hearing offices with under-
used video hearing equipment to be approximately $1.9 million as of June 2010. The
low usage rates may indicate offices with excess equipment that could be better used
where demand is higher. 13

Video Equipment Use by ALJs

As shown in Figure 6, about 55 percent of ALJs nationwide heard cases by video
9 percent of the time or less in FY 2009, and only 3 percent of ALJs used video to hear
cases 75 percent of the time or more for the same period. These statistics indicate a

13
  We understand that demand will fluctuate as workloads shift and new hearing offices are opened. In
addition, any decision to move VTC units from low use to high use offices would have to consider the
costs associated with moving equipment.
Page 9 – The Commissioner


widespread ALJ adoption of VTC to hear cases but with limited frequency when viewed
as a percentage of total ALJ hearing workloads.

           Figure 6: Nationwide ALJ Hearing Activity by Video in FY 2009


                               Only 3% of ALJs Use
                               VTC More Than 75%                 7% of ALJs Use VTC
                                   of the Time                    Between 50% and
                                                                 74.99% of the Time
55% of ALJs Use VTC
 9.99% of the Time
      or Less




                                                                35 % of ALJs Use
                                                               VTC Between 10%
                                                               and 49.99% of the
                                                                     Time




COMMENTS ON VIDEO EQUIPMENT

We spoke with a sample of ALJs about their use or non-use of video equipment in
hearings. We also spoke with outside organizations representing ALJs and claimant
organizations to obtain their impressions.

ALJ Interviews

We interviewed 26 ALJs to gather qualitative input on VTC versus in-person hearing
usage and experience. In addition, to understand better the reasons for use and non-
use of video equipment, we selected ALJs from 2 groups: 20 ALJs with little or no video
hearing activity in video-equipped facilities and 6 ALJs with relatively high video hearing
activity.

Overall, we found that those ALJs with little or no video hearing activity did not use VTC
because there was no need given sufficient in-person hearing workloads. ALJs in this
group also reported (1) a preference for in-person hearings as a superior means of
Page 10 – The Commissioner


evaluating a claimant and (2) an insufficient number of hearing rooms. 14 Overall, the
ALJs we interviewed had positive comments regarding the video hearing format but
suggested improvements to the VTC process, including the need for better voice
transmission and larger monitor screens. 15

Additional Comments on Video Hearings

We also spoke with organizations representing both the ALJs and claimant
representatives to obtain additional comments on the video hearing process. We spoke
with representatives from the Association of Administrative Law Judges (AALJ),
National Organization of Social Security Claimant Representatives (NOSSCR), and
National Association of Disability Representatives (NADR).

The AALJ noted a number of concerns consistent with some of the ALJ statements
during our interviews.

•     Reduction in the ability to observe the claimant when conducting a hearing by way of
      video equipment and loss of “connection” with claimant.
•     Small screens or poor video restricting the ability to observe everything in the
      hearing room at the same time. 16
•     An audio lag in video hearings that inhibits the free flow of speech.
•     Scarcity of hearing room space, as a video hearing requires two or more hearing
      rooms.
•     Problems with last-minute evidence shared by fax.

Representatives from NOSSCR and NADR had mostly positive comments about the
role of VTC in the hearings process. However, NOSSCR meeting participants
expressed some concerns about substandard audio quality.

FLEXIBILITY USING VIDEO HEARING TECHNOLOGY

The use of video hearings to adjudicate disability claims has added substantial
flexibility, as well as additional complexity, to the Agency’s ability to hear cases more
timely through innovative technological approaches, all of which are designed to



14
   Video hearings generally require the use of two hearing rooms, while in-person hearings require only
one room. For example, when an ALJ conducts a video hearing from a parent hearing office to a video-
equipped permanent remote site, two hearing rooms are needed compared to only one room had the ALJ
traveled to the permanent remote site instead to conduct the hearing in person.
15
     Please see Appendix E for full details on the results of our ALJ interviews.
16
     This comment relates to DVU screens.
Page 11 – The Commissioner


improve ALJ productivity and drive down administrative costs. 17 Figure 7 shows the
increased types of video-enabled hearing arrangements that the Agency now has at its
disposal. 18

                    Figure 7: Hearing Process Flexibility Before and After VTC




Notes: (1) The current system also permits a video-equipped PRS to videoconference with a NHC.
          (2) ODAR is increasingly using claimant-only DVU meeting rooms (not shown) attached to the parent
              hearing office as another means of increasing hearing room capacity.
          (3) RVP refers to SSA’s “Representative Video Project” discussed later in the report.

Before video hearings were used, a parent hearing office typically served a fixed
geographic area, and the extended reach of parent hearing offices was historically
limited to nearby areas serviced by ALJs traveling to temporary and permanent remote
sites. 19 Through video hearing technology, geography has become less of a factor
when determining where each of the parties is located. In addition, this new

17
  As part of our work, we considered whether video hearings improved hearing office productivity and
provided claimants with more timely service. However, as we gained an understanding of video hearings
and hearing office operations, it became apparent that many inseparable variables outside the scope of
our review have a significant impact on hearing office productivity and customer service. For example,
during the period we reviewed, ODAR was also initiating a number of significant structural and
operational changes, such as the Senior Attorney Adjudicator program, increased ALJ hiring, Aged Claim
Backlog initiative, NHCs, the Service Area Realignment initiative, and the Electronic Disability Project.
18
     Flowcharts depicting the processes associated with some of these scenarios are in Appendix D.
19
   ODAR has two types of remote sites—permanent and temporary. According to ODAR criteria, a PRS
is a space that has been assigned to or leased for ODAR by the General Services Administration in a city
within the defined service area of a hearing office. A temporary remote site (TRS) is a location where
hearings are held in space not under a General Services Administration lease or assignment to ODAR.
Page 12 – The Commissioner


configuration reduces the amount of time and related costs that would have been
incurred had the ALJ traveled to the remote location. 20

Perhaps the most important capability provided by the use of video hearings is the ease
with which pending cases can be reassigned from heavily backlogged offices to virtually
any video-equipped ALJ who has excess hearing capacity anywhere in the country.
This flexibility became a critical component of other initiatives, such as the Aged Claim21
and Service Area Realignment (SAR) 22 initiatives. For example, aged cases could be
heard by any video-equipped ALJ in the country. One key component of this new
flexibility is the NHCs. Now located in five cities, these new centers conduct only VTC
hearings to alleviate backlogs at hearing offices. As noted earlier, the NHCs conducted
about 9 percent of all video hearings in FY 2009.

To expand the number of claimant-related locations for hearings, SSA initiated the
Representative Video Project (RVP) in FY 2008. RVP permits claimant representatives
to purchase their own video conferencing equipment (that must meet SSA
specifications) to conduct hearings from their own office space. This initiative increases
the number of hearing locations available to some claimants.23

We commented on the increased flexibility offered by video hearings in a
September 2009 audit, 24 where we noted that the hearing office in Springfield, Missouri,
was able to transfer approximately 1,500 claims to 60 different locations in FY 2008,
with the San Francisco Region receiving the most claims. In fact, one PRS associated
with the Springfield Hearing Office was used exclusively for claimant video hearings by
assisting offices.

We found similar instances of flexibility in this review. For instance, video equipment
provided flexibility in the Chicago Region as it attempted to work down hearing backlogs
while awaiting the construction of new hearing offices. We reviewed the FY 2010
hearing data through June 2010 and found video hearings varied from approximately
1 percent of all hearings in Michigan-based hearing offices to about 43 percent in
Illinois-based hearing offices.

20
  Because of security and technology issues, TRSs are not equipped with ODAR video equipment.
TRSs may include hotels or local government offices.
21
  Under the Aged Claim initiative, SSA emphasized processing the oldest claims in the backlog. For
example, in FY 2010, ODAR focused on eliminating all claims pending 825 days or longer.
22
   The SAR initiative has been conducted in two phases. The first phase includes permanent
interregional transfer of claims, which was designed to decrease aged pending workloads of heavily
impacted offices between regions. Once the flow of transfer claims began, phase two involved realigning
specific SSA field offices in high workload regions to hearing offices in lower workload regions. This
meant that new claims would be processed and heard in hearing offices in a different part of the country
from where the claimant lived.
23
     We are conducting a separate audit on Representative Video Project (A-05-09-19101).
24
     SSA OIG, Aged Claims at the Hearing Level (A-12-08-18071), September 2009.
Page 13 – The Commissioner

           Table 1: VTC Hearings in the Chicago Region as a Percent of Workload
                             (FY 2010 Data Through June 2010)
                    Number of                                           Percent of
                     Hearing                                            Hearings
        State        Offices     Total Hearings   VTC Hearings      Conducted by VTC
 Illinois               5              15,852            6,870             43.3
 Indiana                3               8,135              935             11.5
 Michigan               5              13,441              137              1.0
 Minnesota              1               4,989              287              5.8
 Ohio                   4              13,322              691              5.2
 Wisconsin              2               4,901              344              7.0
 Total/Average        20               60,640            9,264            15.31
Note 1: We used a weighted average to calculate this figure.

We spoke with Chicago regional staff about the varied use of VTC in the Chicago
Region. They informed us that the vast majority of VTC hearings was intra-regional
workload redistributions. For example, the Evanston, Illinois, office assumed 800 aged
cases from the Grand Rapids, Michigan, Hearing Office and another 500 cases from the
Flint, Michigan, Hearing Office in the summer of 2009. The majority of these transferred
cases was heard by VTC, and the presiding ALJ’s home hearing office received credit
for the video hearing.

DVUs are a key part of the Agency’s video hearing expansion plans for the convenience
of individuals who have filed a hearing request. Using the small, flat screen DVU
monitors enables ALJs to conduct video hearings in their offices instead of occupying a
hearing room. After limited testing of DVUs in FY 2008, the Agency reported positive
feedback and continues to install new equipment nationwide, such as in field office
personal interview rooms and attorney/claimant conference rooms at the hearing
offices. However, to date, the only parties using this equipment have been the Hearing
Office Chief ALJs and ALJs in the NHCs.

ODAR hearing office configuration allows one full-size hearing room for every two ALJs.
This model has not changed in recent years, and new hearing offices are being
constructed to this standard. As a result, while the use of VTC can reduce ALJ travel to
remote sites, the use of additional full-size hearing rooms in parent hearing offices to
conduct video hearings can create capacity problems. Given the lower costs of the
DVU equipment, as well as potential VTC capacity issues in the future should video
usage grow, ODAR may be able to reduce costs and increase its flexibility by expanding
the DVUs to additional ALJs.

TIMELINESS OF VIDEO HEARINGS

We reviewed case processing times for claims involving either a video or an in-person
hearing to identify any significant differences for closed claims from FYs 2005 to 2009.
We found that hearings conducted using video took slightly longer to dispose of than did
Page 14 – The Commissioner


claims heard in-person. One factor contributing to this difference is the Commissioner’s
initiative to hear oldest claims first, which led to many older hearings being reassigned
to less-burdened hearing offices and NHCs where they were ultimately heard by
video. 25

CONCLUSION AND RECOMMENDATIONS
SSA is steadily increasing its VTC capacity to address growing workloads and hearing
backlogs. The use of this equipment varies by ALJ, hearing office, and region
depending on the particulars of each situation. Moreover, the nature of the equipment,
as well as the addition of new locations to host this equipment, has provided SSA with
additional flexibility in eliminating its hearings backlog. Given the variances in the use of
the equipment among offices, the Agency may have opportunities to align more
accurately equipment placement with equipment needs. Finally, the use of less costly
equipment such as the DVU provides an opportunity for the Agency to reduce the costs
of VTC hearings.

To ensure the video hearing technology is used to the greatest extent possible and the
Agency receives the greatest benefit from its investment, we recommend the Agency:

1. Periodically evaluate video hearing equipment requirements at each location against
   historical and expected usage. Such periodic evaluations should be conducted
   before new equipment is ordered.

2. Consider expanding the use of DVU equipment to all interested ALJs.

AGENCY COMMENTS
The Agency agreed with our recommendations, noting it continues to refine its
processes for determining where VTC is most useful and promote the ALJ’s use of DVU
technology.

OIG RESPONSE
To assist with future determinations on VTC equipment placement, we provided ODAR
with the list of hearing offices we identified with low use of VTC equipment.




                                                    Patrick P. O’Carroll, Jr.


25
  See Appendix F for additional information and analysis on the timeliness of video versus in-person
hearings.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Video Hearing Format, Equipment, and Costs

APPENDIX C – Scope and Methodology

APPENDIX D – Primary Video Teleconference Processes

APPENDIX E – Results of Administrative Law Judge Interviews

APPENDIX F – Timeliness of Video Hearings

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
AALJ     Association of Administrative Law Judges
ALJ      Administrative Law Judge
AO       Administrative Officer
C.F.R.   Code of Federal Regulations
CPMS     Case Processing and Management System
DDS      Disability Determination Services
DRAP     Digital Recording Acquisition Project
DVU      Desktop Video Unit
FR       Federal Register
FY       Fiscal Year
ME       Medical Expert
NADR     National Association of Disability Representatives
NHC      National Hearing Center
NOSSCR   National Organization of Social Security Claimant Representatives
OCALJ    Office of Chief Administrative Law Judge
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
OQP      Office of Quality Performance
OTSO     Office of Telecommunications and Systems Operations
PRS      Permanent Remote Site
RVP      Representative Video Project
SAR      Service Area Realignment
SSA      Social Security Administration
TRS      Temporary Remote Site
VE       Vocational Expert
VTC      Video Teleconference
                                                                               Appendix B

Video Hearing Format, Equipment, and Costs
During a video hearing, the claimant can see the judge and anyone who is with the
judge. If needed, the judge and the claimant can video teleconference concurrently with
other parties, such as medical or vocational experts, located at other video hearing
sites. In addition, technical assistants are present at each end of the video
teleconference (VTC) to ensure the equipment works smoothly.

                                                          The Social Security Administration
                                                          (SSA) maintains a secure electronic
                                                          transmission to ensure claimant
                                                          privacy. As a matter of policy, SSA
                                                          does not videotape hearings, though
                                                          the Agency makes audio recordings,
                                                          as is customary for all hearings.

                                                          By design, VTC facilitates the virtual
                                                          integration of expert testimony to
                                                          broaden the pool of experts available
                                                          for hearings, particularly in those areas
                                                          where access to experts is limited.

                                                          The main components for each VTC
                                                          room system include a camera and a
                                                          58” color monitor, as shown in Picture
                                                          B-1. The camera has full pan and

                       Picture B-1

zoom functionality. The video equipment for full-
sized hearing rooms comes with a separate codec
box 1 about the size of a VCR. The monitor may be
wall or cart mounted at the option of the hearing
office. If the monitor is wall-mounted, the camera
sits on a shelf immediately below the monitor. The
codec unit is mounted in a box below the camera.
A separate remote controls the camera.

A standard Desktop Video Unit (DVU) set-up (see
Picture B-2) consists of a desktop camera with the
same functionality as the room-size units in terms
                                                                         Picture B-2
1
    The codec contains the video system software.


                                                    B-1
of compatibility and digital recording equipment with voice add-on for video calls. Like
the room-sized version, the DVU’s camera has full pan and zoom capabilities. The high
definition viewing set is the size of a 20” computer monitor with the controls in the base
of the unit. Unlike the full-sized room version, there is no separate handset remote
control.

The Office of Disability Adjudication and Review (ODAR) uses the Office of
Telecommunications and Systems Operations (OTSO) to contract with vendors to
acquire, install, and maintain additional video units. OTSO is also responsible for
providing appropriate bandwidth, switches, and other network infrastructure to the VTC
sites.

ODAR is responsible for site selection, site preparation, and providing on-site contacts
to ensure smooth delivery and installation. Site preparation includes electrical work,
telephone lines, and wall reinforcement to support large, flat panel video monitors.2 The
costs associated with each standard equipment package are shown in Tables B-1 and
B-2.

                              Table B-1: Room System Video Costs
                    VTC Room System – 58’ Wall Mounted –
                                   Components                                 Cost
              HD Video Conferencing System1                                   $15,046
              Premier 1 Year Maintenance                                        1,417
              58" HD Flat Panel Monitor                                         2,237
              Chief Tilting Plasma Mount                                          216
              Cable Floor Track                                                    61
              Uniduct Raceway                                                      44
              Low Profile Wall Rack                                               305
              Camera Shelf                                                        118
              Custom Shipping                                                   1,040
              Surge Protector                                                      11
              Cables, Wiring, and Installation                                  2,338
              Total Cost                                                      $22,833
            Note 1: A similar Room Cart System is also available for approximately $24,000.



                                        Table B-2: DVU Costs
                       Desktop Video Unit – Components                        Cost
              HD Videoconferencing System                                      $6,053
              Premier 1 Year Maintenance                                          762
              Surge Protector                                                      11
              Cabling/Installation                                              1,730
              Total Cost                                                       $8,556

As of June 2010, the Agency had 951 video units installed around the country (see
Figure B-1). Of the 951 units, 201 (22 percent) are DVUs. For instance, all the video
2
    ODAR Initiative Fact Sheet on Video Hearings (as of June 1, 2010).


                                                    B-2
units installed at the National Hearing Centers are DVUs. In addition, about 12 percent
of the permanent remote site units are in field offices.

                              Figure B-1: Location of 951 Video Units
                                         (as of June 2010)

                                       3% 1%
                                  5%


         25%




                                                                                      66%




          Hearing Offices (66%)                             Permanent Remote Sites (25%)
          National Hearing Centers (5%)                     Regional Offices (3%)
          Headquarters (1%)

From January 2009 to September 2010, OTSO recorded 393 video equipment trouble
reports nationwide. Sixty percent of these service calls were related to the Polycom
camera equipment, while 18 percent of the calls related to the video monitors/television
screens. The median and average number of days reported to resolve open tickets
during the period under review were 6.5 and 9.3 days, respectively.

                    Figure B-2: Reported VTC Equipment Trouble by Type
                          (January 2009 through September 2010)
                                               6%               3%
                                                                        0.3%
                              13%




                  18%

                                                                                      60%



                              Polycom Camera (60%)         Monitor/Television (18%)
                              Other (13%)                  CODEC (6%)
                              DRAP (3%)                    Unknown (0.3%)

Notes: Portions may not add to 100 percent due to rounding. Digital Recording Acquisition Project
(DRAP) equipment is used to record the audio portion of hearings.


                                                     B-3
                                                                        Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations pertaining to the use of Social
    Security Administration (SSA) video hearings, including the Code of Federal
    Regulations.

•   Reviewed SSA and the Office of Disability Adjudication and Review’s (ODAR)
    policies and procedures pertaining to video teleconferencing (VTC), including the
    Program Operations Manual System and the Hearings, Appeals, and Litigation Law
    Manual.

•   Reviewed information maintained by ODAR on its Video Hearing Website, including
    hearing site location information and VTC equipment operating procedures.

•   Met with management and staff at ODAR hearing offices and Headquarters to
    understand and document the processes and technology associated with VTC.

•   Prepared flowcharts for the most common VTC operations and verified their
    accuracy with ODAR staff and management.

•   Gathered and analyzed Case Processing and Management System (CPMS) data for
    closed claims from 2005 through 2009 to identify trends and points of statistical
    interest, such as percentage of hearings conducted by video and geographical
    dispersion of video usage. We also reviewed published 2010 data for the purpose of
    comparison.

•   Worked with ODAR and Office of Telecommunications and Systems Operations
    (OTSO) staff to obtain current cost, purchasing, and inventory information related to
    the VTC equipment.

•   Interviewed a non-representative sample of 26 administrative law judges (ALJ) to
    (1) gather qualitative input on VTC versus in-person hearing usage and experience
    and (2) validate selected elements of CPMS data as accurate. We divided our ALJ
    sample into 2 parts, selecting 20 ALJs with little or no VTC activity in video-equipped
    facilities in 2007 and 2008, and 6 ALJs with relatively high VTC activity in 2008. We
    separated our sample data in this manner to understand, through phone interviews
    with each ALJ chosen, the underlying reasons for having distinctly low or high VTC
    usage.

•   Solicited comments from the Association of ALJs, National Organization of Social
    Security Claimant Representatives, and National Association of Disability
    Representatives on the use of VTC equipment in the adjudication of disability claims.

                                            C-1
•   Visited three hearing locations: the Detroit, Michigan, Hearing Office; Evanston,
    Illinois, Hearing Office; and National Hearing Center in Chicago, Illinois. At the
    Detroit Hearing Office, we observed two live hearings; one VTC and one in-person.
    We spoke with the ALJs following the conclusion of the hearings we observed and
    gathered their opinions on the VTC versus in-person format.

•   Performed an in-depth analysis of VTC equipment deployed in the Chicago Region,
    as well as nationwide, in comparison to actual VTC equipment usage. To do this,
    we used the OTSO-provided inventory and ODAR-reported hearing data for Fiscal
    Year 2010 through June 2010. The purpose of this analysis was to identify potential
    situations where hearing offices have been equipped with unnecessary or
    underutilized equipment.

•   Reviewed data from video equipment trouble reports as maintained by OTSO for the
    period January 2009 through September 2010.

We found the hearings data to be sufficiently reliable to meet our objectives. We
performed our fieldwork from March 2009 until August 2010. We performed our audit at
the Office of Audit in Chicago, Illinois. The entity reviewed was ODAR. We conducted
our work in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                          C-2
                                                                                                Appendix D

Primary Video Teleconferencing Processes
                             Vid e o He a rin g s a t Re m o te He a rin g Offic e s




Notes:

1. Diagram represents the generic process for a hearing requested at a hearing office with a video-equipped,
    permanent remote site.
2. Before hearing office case receipt, an initial claim filed at a Social Security Administration (SSA) field office has
    been denied by a State disability determination service (DDS). An initial claim denial prompts some claimants to
    revisit the field office to appeal the DDS decision. Denial appeals are then picked up by an SSA hearing office
    for adjudication.
3. Exhibit lists are copied onto compact disks and sent to the claimant or the claimant’s representative. Medical
    experts (ME) and vocational experts (VE) will later participate in a video hearing by telephone, be at the site with
    the presiding administrative law judge (ALJ), at the site with the claimant, or at a separate video-teleconferencing
    (VTC) location.
4. The ALJ’s decision may be written by the National Case Assistance Center at the discretion of the Office of the
    Chief ALJ (OCALJ).
5. Decision editing, review, and signature are all electronic activities.
6. A centralized outside contractor performs printing and mailing activities via SSA system access.




                                                           D-1
                  Vid e o He a rin g s Re s ultin g fro m S e rvic e Are a Re a lig n m e n ts




Notes:

1.   Process depicts a typical new (hearing) case affected by Service Area Realignment (SAR). Annually, the OCALJ
     determines which field offices are subject to a SAR and issues instructions defining which distant hearing offices
     will assume case management responsibility for realigned offices. Cases routed to distant hearing offices as part
     of SAR generally necessitate video hearings.
2.   Before hearing office case receipt, an initial claim filed at an SSA field office has been denied by a State DDS.
     An initial claim denial prompts some claimants to revisit the field office to appeal the DDS decision. Denial
     appeals are then picked up by an SSA hearing office for adjudication.
3.   A claimant affected by SAR may elect to have his case heard in person. In this situation, the claimant must wait
     until the distant hearing office ALJ has a full docket and travels to the claimant’s local area. Alternatively, a
     claimant may request an in-person hearing and then request a change of venue to a hearing office in the
     claimant’s local area. If a claimant requests such a change of venue, the ALJ has statutory discretion in
     determining whether to grant the request.
4.   Exhibit lists are copied onto compact disks and sent to the claimant or the claimant’s representative. MEs and
     VEs will later participate in a video hearing by telephone, be at the site with the presiding ALJ, at the site with the
     claimant, or at a separate VTC location.
5.   In practice, if there is not a full docket to justify travel by an ALJ from the realigned hearing office, the local
     hearing office may consent to have the case transferred from the realigned office. Operationally, this may result
     in some duplication of effort and delay if the ALJ in the realigned office already invested time reviewing the case
     prior to the hearing, or if the ALJ in the local hearing office wishes to review the case in detail prior to the hearing.
     If the case is part of the aged case initiative, approval must be secured from OCALJ before being transferred.
6.   The ALJ’s decision may be written by the National Case Assistance Center at the OCALJ’s discretion.
7.   Decision editing, review, and signature are all electronic activities.
8.   A centralized outside contractor performs printing and mailing activities via SSA system access.



                                                            D-2
                            Vid e o He a rin g s a t Na tio n a l He a rin g Ce n te rs




Notes:

1. Process depicts a typical new (hearing) case permanently transferred to a National Hearing Center (NHC). The
    Administrative Officer (AO) at each NHC perpetually assesses workload availability (hearing scheduling capacity)
    6 months into the future. As hearing capacity becomes available, the AO will communicate with the OCALJ NHC
    at headquarters to request additional hearings sites or additional workload to maximize productivity. OCALJ
    NHC headquarters works with OCALJ Division of Workload Management to obtain approval to assist any hearing
    office deemed to require NHC assistance. For example, at the time of our review, the NHC in Chicago had
    instructions to support eight hearing offices in six States: Alabama, Indiana, Florida, Michigan, Missouri, and
    Wisconsin.
2. Before case receipt, an initial claim filed at an SSA field office has been denied by a State DDS. An initial claim
    denial prompts some claimants to revisit the field office to appeal the DDS decision. Denial appeals are then
    permanently transferred from a backlogged hearing office location to an NHC for adjudication.
3. A claimant having his or her case permanently transferred to an NHC may elect to have the case heard in
    person. When a claimant declines an NHC video hearing, the case is sent directly back to the original hearing
    office to await an in-person hearing.
4. The Certified Electronic Folder containing the evidence of record is copied onto compact disks and sent to the
    claimant or the claimant’s representative, and any contracted ME or VE before the hearing. VEs and MEs will
    later participate in a video hearing by telephone.
5. NHCs assume responsibility for all decision writing and do not use National Case Assistance Center resources.
6. Decision editing, review, and signature are all electronic activities.
7. A centralized outside contractor performs printing and mailing activities via SSA system access.




                                                         D-3
                                                                                 Appendix E

Results of Administrative Law Judge Interviews
We interviewed a non-representative sample of 26 administrative law judges (ALJ) to
gather qualitative input on video teleconferencing (VTC) versus in-person hearing use
and experience. In addition, to better understand the reasons for use and non-use of
video equipment, we divided our ALJ sample into 2 parts, selecting 20 ALJs with little or
no video hearing activity in video-equipped facilities, and 6 ALJs with relatively high
video hearing activity. The following summarizes the results of these interviews.

Low Video Equipment Usage

Of the 20 ALJs with little or no video activity, we found the average annual number of
hearings held in this sample was 419 per ALJ, with 99 percent of all hearings having
been conducted in-person. Moreover, ALJs in this group reported an average tenure of
15 years as a judge, and reported scheduling an estimated 54 cases per month. The
top three reasons given in explanation for low video hearing usage were as follows:

•   13 ALJs (65 percent) reported a lack of need based on a sufficient number of in-
    person cases;
•   9 ALJs (45 percent) expressed a preference for in-person hearings, citing in-person
    observation as a superior means to evaluate a claimant; and
•   6 ALJs (30 percent) reported an insufficient number of hearing rooms as an
    explanatory factor.

Seven of these ALJs, or 35 percent, gave more than one reason to explain their lack of
video hearing usage. Overall, 10 ALJs expressed favorable views of VTC as a hearing
format, 3 ALJs were neutral, and 7 ALJs expressed generally negative sentiment toward
video hearings. Anecdotal technical comments on video communications and
equipment included a desire for larger video monitor screens and annoyance with a
voice transmission delay when communicating with video hearing participants.

High Video Equipment Usage

Of the six ALJs with a high amount of video activity, we found the average number of
hearings held in this sample was 483 per year per ALJ,1 with 37 percent of their
hearings conducted in-person and 63 percent conducted by video. Moreover, ALJs in
this group reported an average tenure of 14 years as a judge, and reported scheduling
an estimated 56 cases per month. While all six ALJs interviewed in this sample stratum


1
 As this was a non-representative sample, we are making no inferences pertaining to ALJ productivity
and the use of video equipment.


                                                  E-1
expressed positives views about the VTC hearing format, they did have certain issues
with the equipment, as follows:

•   two ALJs reported better ability to assess claimant cases when heard in-person
    compared to using video;
•   two ALJs reported difficulty with a voice transmission time lag; and
•   one ALJ would like to have larger or better quality video monitors.

Anecdotal technical comments on video communications and equipment from this group
included reports of problems with last-minute evidence submission by fax and
occasional line connection failures.




                                            E-2
                                                                                        Appendix F

Timeliness of Video Hearings
We also reviewed case processing times for claims involving either video
teleconferencing (VTC) or an in-person hearing to identify any significant differences.
Specifically, we examined the relationship between the average number of days
elapsed between hearing request dates to final claim disposition dates for VTC versus
in-person hearings for closed claims from Fiscal Years (FY) 2005 to 2009.

As shown in Figure F-1, hearings conducted using video took slightly longer to dispose
of than claims heard in-person. One factor contributing to this difference is the
Commissioner’s Aged Claim initiative to eliminate the oldest claims, which led to many
older hearings being reassigned to less-burdened hearing offices and National Hearing
Centers where they were ultimately heard by video. 1 All other factors holding constant,
the Agency could expect to see this difference shrink over time as the average age of
claims heard by video decreases.

      Figure F-1: Average Processing Time: In-Person Versus Video Hearings
                             (Fiscal Years 2005-2009)

                                                600

                                                550
       Days From Request to Disposition




                                                500

                                                450

                                                400

                                                350

                                                300
                                                      2005   2006         2007   2008     2009
                                          In Person   410    444          478    485      467
                                          VTC         425    502          524    561      545
                                          All         415    483          512    514      491
               Note: The Agency has reported the FY 2005 average processing time as 443 days when
               adjusted for Medicare hearings.




1
 Social Security Administration, Office of the Inspector General, Aged Claims at the Hearing Level
(A-12-08-18071), September 2009.


                                                                    F-1
Our analysis indicated that the majority of the time to dispose of a hearing case occurs
before the hearing itself. In 2009, for example, cases heard by VTC took approximately
545 total days to close, on average. Of those 545 days, 490 days (approximately
90 percent) elapsed before the hearing. Cases involving in-person hearings took
slightly less time to process, 467 days, on average. In 2009, activities occurring after a
hearing is held, primarily decision writing and issuance, took 55 days on average for
video hearing cases and 62 days on average for in-person cases.

The average time it took to close claims involving both VTC and in-person hearings
climbed steadily from FY 2005 through FY 2008. It then showed signs of improvement
in 2009, with overall case processing time decreasing 3 percent in comparison to the
prior year.




                                           F-2
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      March 28, 2011                                                   Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Use of Video Hearings to Reduce the Hearing
           Case Backlog” (A-05-08-18070)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Chris Molander, Senior Advisor, Audit Management and Liaison Staff, at (410) 965-7401.

           Attachment




                                                         G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“USE OF VIDEO HEARINGS TO REDUCE THE HEARING CASE BACKLOG”
 (A-05-08-18070)

Thank you for the opportunity to review the subject report. We offer the following comments:

Recommendation 1

Periodically evaluate video hearing equipment requirements at each location against historical
and expected usage. Such periodic evaluations should be conducted before new equipment is
ordered.

Response:

This is already our practice. As we phase-in use of video teleconferencing technology (VTC),
we continue to refine our processes for determining where it will be most useful. As you found
in your study, several factors influence VTC usage. We consider these factors and study
historical trends as we make decisions to expand the project.

We consider this recommendation closed for tracking purposes.

Recommendation 2

Consider expanding the use of DVU equipment to all interested ALJs.

Response:

We agree. Desktop Video Units (DVU) offer a less costly, effective means for conducting
hearings. We will continue to promote administrative law judges’ use of DVU technology.




[In addition to the information listed above, SSA also provided technical comments,
which we addressed, where appropriate, in this report.]




                                              G-2
                                                                      Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division

Acknowledgments
In addition to those named above:

   Gregory Geisert, Auditor-in-Charge

   Elizabeth Ochoa, Senior Auditor

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-08-18070.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
